<html>
<title> - MODERNIZING THE ELECTION REGISTRATION PROCESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
             MODERNIZING THE ELECTION REGISTRATION PROCESS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, OCTOBER 21, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                  U.S. GOVERNMENT PRINTING OFFICE
53-788                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                           Professional Staff
                      Jamie Fleet, Staff Director
               Victor Arnold-Bik, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

ZOE LOFGREN, California, Chairwoman  KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas, Vice     GREGG HARPER, Mississippi
    Chairman
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama


             MODERNIZING THE ELECTION REGISTRATION PROCESS

                              ----------                              


                      WEDNESDAY, OCTOBER 21, 2009

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:05 p.m., in 
room 1310, Longworth House Office Building, Hon. Charles A. 
Gonzalez (vice-chairman of the subcommittee) presiding.
    Present: Representatives Gonzalez, Davis of California, 
Davis of Alabama, and Harper.
    Staff Present: Tom Hicks, Senior Election Counsel; Janelle 
Hu, Election Counsel; Jennifer Daehn, Election Counsel; Kyle 
Anderson, Press Director; Joe Wallace, Legislative Clerk; 
Daniel Favarulo, Legislative Assistant, Elections; Darrell 
O'Connor, Professional Staff Member; Shervan Sebastian, Staff 
Assistant; Victor Arnold-Bik, Minority Staff Director; Peter 
Schalestock, Minority Counsel; Karin Moore, Minority 
Legislative Counsel; Salley Collins, Minority Press Secretary; 
and Josiah Prendergrast, Minority Professional Staff Member.
    Mr. Gonzalez. Good afternoon. I would like to call the 
Committee on House Administration Subcommittee on Elections 
Hearing on Modernizing the Election Registration Process to 
order.
    An unexpected conflict has prevented Chairwoman Lofgren 
from being here today, but she was most insistent that this is 
way too important an issue to be delayed, so we will proceed in 
her absence, rather than a further rescheduling of the hearing.
    I do want to place everyone on notice that we've been 
notified that we are going to have a series of votes starting 
around 1:15 or so; and I anticipate that we will get some 
opening remarks by the members out of the way, probably break 
for the votes, and then come back 10 minutes after the last 
vote which I wish I could give you an estimation of time, but 
it generally could be anywhere from 30 to 40 minutes.
    Today's hearing will highlight ways in which technological 
innovations can modernize the Nation's election system, 
particularly the voter registration process. As we learned in 
hearings during this and the 110th Congress, voter registration 
has been the source of many headaches and obstacles for 
election officials and voters alike.
    The Cooperative Congressional Election Study reports that 2 
to 3 million voters in the 2008 general election were prevented 
from voting because of issues with voter registration or 
authentication. These issues have resulted in resounding calls 
to modernize the registration process to increase efficiency 
and accuracy as well as lower election administration costs.
    As most registration problems result from the time-
intensive and paper-based characteristics of the process, 
technology can play a valuable role in decreasing costs and 
increasing efficiencies. Tools developed to maximize the 
Internet in the administration of elections are quickly being 
embraced. According to a recent Pew report, almost three in 
four adults use the Internet, and almost two-thirds of all 
Internet users turn to government Web sites for information. 
Forward-thinking states are starting to offer voters the 
opportunity to register to vote, update their registration 
information, request absentee ballots, view sample ballots, and 
even find polling places online. Such technological 
developments have facilitated the registration and voting 
process for all voters, including the elderly, physically 
challenged, and individuals living abroad, civilian and 
military alike.
    Representative Lofgren introduced H.R. 1719, the Voter 
Registration Modernization Act of 2009, to bring every American 
the benefits that online voter registration technology has 
brought to the citizens of the states from Washington to 
Delaware. H.R. 1719 would require states to offer a Web site 
for voters to register and update their registration 
information online. Online voter registration makes the entire 
registration process more accessible to millions of people, 
while improving the accuracy of voter registration databases. 
It reduces the cost of administering elections and voter rolls, 
while making the rolls and our elections even more secure.
    The issues we will explore today have the potential to 
significantly improve the registration process. I look forward 
to our witnesses addressing the role of technology in 
modernizing the election registration process and providing 
insight into implementing online voter registration tools.
    We are going to proceed now. The ranking member, Mr. 
McCarthy, has been delayed. He is in a markup in Financial 
Services. I am not going to even give you the subject matter, 
because if you haven't been reading the newspapers, they'll be 
there the rest of the week. However, at this time I would like 
to recognize my colleague, Mr. Harper, for an opening 
statement.
    Mr. Harper. Thank you, Mr. Chairman.
    Our committee was fortunate enough to receive the input of 
a number of State election officials for today's hearing. The 
resounding sentiment from these officials was great concern 
about the provisions of H.R. 1719.
    The administration of elections is not a one-size-fits-all 
proposition. States need flexibility in order to best serve the 
citizens of their States, while still maintaining the highest 
level of integrity for our elections. Moreover, our election 
system is better served as secretaries of State and local 
election officials are actively engaged as participants in the 
drafting of legislation.
    Unfortunately, State and local administrators apparently 
were not consulted when this bill was being drafted. It seems 
that this committee and this Congress are creeping ever closer 
to the complete federalization of elections, a trend that I 
find highly disturbing.
    As I have consulted with State election administrators on 
the pending legislation, there has been a nearly unanimous 
outcry concerning some key provisions in H.R. 1719. Central 
among these concerns has been that the legislation not only 
doesn't require new online registration systems to include a 
tie to a current State motor vehicle database but also requires 
States currently utilizing motor vehicle databases to stop 
using this important tool for voter identification.
    As one election official stated in a letter to the 
committee, the absence of a validating database renders online 
voter registration ``a method to flood the system with 
registrations for nonexistent people'' and such a structure 
would ``embolden those who would perpetuate voter registration 
fraud on a new level.''
    Officials have also expressed grave concerns over H.R. 
1719's prohibition against canceling outdated registrations. 
The bill would prohibit States from deleting certain 
individuals from the registration rolls, regardless of the 
length of time since they last voted or had contact with an 
elections office. Even in the face of overwhelming evidence 
that the voter should no longer be registered, H.R. 1719 would 
require election officials to keep voters on the rolls in 
perpetuity. This will undoubtedly lead to inaccurate voter 
rolls and overinflated numbers of registered voters, requiring 
election officials to purchase additional supplies and 
equipment for ineligible voters and increasing the risk of 
fraud.
    Another common concern expressed by States is the 
unworkability of shortening of the registration timeline to 15 
days. The deadline for registration varies, of course, from 
State to State, but the overwhelming majority of States share a 
timeline longer than 15 days. After registration ends, election 
officials are tasked with accurately reviewing applications, 
entering new voters, verifying registrants' eligibility to 
vote, reviewing the voter list for accuracy, and preparing for 
the upcoming election. Limiting the voter registration deadline 
to 15 days before an election does not allow election officials 
the time they need to accomplish these much-needed tasks.
    As I have talked with election officials, I have been 
continually impressed by their professionalism and their 
commitment to providing a fair and accurate administration of 
elections. I hope that this committee takes their criticisms to 
heart when examining this bill.
    Mr. Chairman, I also have a number of items I would like to 
be entered into the record, if I may be allowed to read those 
items.
    I would like to submit the following statements for the 
record:
    A letter from Washington Secretary of State Sam Reed 
stating that the online voter registration system must be tied 
to the State driver's license agency;
    A letter from Indiana Secretary of State Todd Rokita 
stating that the link to the motor vehicle database is 
essential to protect the integrity of the election process;
    A letter from the Sacramento County Registrar of Voters 
stating that collecting e-mail addresses from voters takes too 
long and is a waste of our time;
    A letter from the Secretary of State of Georgia, Karen 
Handel, opposing H.R. 1719 and stating that she finds the 
Federal Government's intrusion on State administration 
elections to be a disturbing trend and not in the best interest 
of our citizens, our country, or our democracy;
    A letter from Thurston Country Auditor Kim Wyman stating, 
without verification to a database, online registration becomes 
a method to flood the system with registrations for nonexistent 
people;
    A letter from Kansas Secretary of State Ron Thornburgh 
where he calls section 5 of H.R. 1719 the most troubling and 
potentially damaging section of the bill which would set back 
States many years in their ability to know who is qualified to 
vote;
    A letter from the Arizona Association of County Recorders 
expressing grave concerns regarding the list maintenance 
portion of the bill;
    A letter from Mississippi Secretary of State Delbert 
Hosemann calling H.R. 1719 ``very disturbing'' because 
officials would have to register voters without verifying their 
identity;
    A letter from the National Association of Election 
Officials raising the cost and impracticality of collecting and 
utilizing e-mail addresses for voter communication;
    A letter from Maricopa County stressing the vital role of 
linking registration to the motor vehicle database;
    And also a letter from James Alcorn of the Virginia State 
Board of Elections stating the new 15-day registration timeline 
would be difficult to process.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.001
    
    [GRAPHIC] [TIFF OMITTED] T3788A.002
    
    [GRAPHIC] [TIFF OMITTED] T3788A.003
    
    [GRAPHIC] [TIFF OMITTED] T3788A.004
    
    [GRAPHIC] [TIFF OMITTED] T3788A.005
    
    [GRAPHIC] [TIFF OMITTED] T3788A.006
    
    [GRAPHIC] [TIFF OMITTED] T3788A.007
    
    [GRAPHIC] [TIFF OMITTED] T3788A.008
    
    [GRAPHIC] [TIFF OMITTED] T3788A.009
    
    [GRAPHIC] [TIFF OMITTED] T3788A.010
    
    [GRAPHIC] [TIFF OMITTED] T3788A.011
    
    [GRAPHIC] [TIFF OMITTED] T3788A.012
    
    [GRAPHIC] [TIFF OMITTED] T3788A.013
    
    [GRAPHIC] [TIFF OMITTED] T3788A.014
    
    [GRAPHIC] [TIFF OMITTED] T3788A.015
    
    [GRAPHIC] [TIFF OMITTED] T3788A.016
    
    [GRAPHIC] [TIFF OMITTED] T3788A.017
    
    [GRAPHIC] [TIFF OMITTED] T3788A.018
    
    [GRAPHIC] [TIFF OMITTED] T3788A.019
    
    [GRAPHIC] [TIFF OMITTED] T3788A.020
    
    [GRAPHIC] [TIFF OMITTED] T3788A.021
    
    [GRAPHIC] [TIFF OMITTED] T3788A.022
    
    [GRAPHIC] [TIFF OMITTED] T3788A.023
    
    [GRAPHIC] [TIFF OMITTED] T3788A.024
    
    [GRAPHIC] [TIFF OMITTED] T3788A.025
    
    [GRAPHIC] [TIFF OMITTED] T3788A.026
    
    [GRAPHIC] [TIFF OMITTED] T3788A.027
    
    [GRAPHIC] [TIFF OMITTED] T3788A.028
    
    [GRAPHIC] [TIFF OMITTED] T3788A.029
    
    [GRAPHIC] [TIFF OMITTED] T3788A.030
    
    [GRAPHIC] [TIFF OMITTED] T3788A.031
    
    [GRAPHIC] [TIFF OMITTED] T3788A.032
    
    [GRAPHIC] [TIFF OMITTED] T3788A.033
    
    [GRAPHIC] [TIFF OMITTED] T3788A.034
    
    [GRAPHIC] [TIFF OMITTED] T3788A.035
    
    [GRAPHIC] [TIFF OMITTED] T3788A.036
    
    [GRAPHIC] [TIFF OMITTED] T3788A.037
    
    [GRAPHIC] [TIFF OMITTED] T3788A.038
    
    [GRAPHIC] [TIFF OMITTED] T3788A.039
    
    [GRAPHIC] [TIFF OMITTED] T3788A.040
    
    [GRAPHIC] [TIFF OMITTED] T3788A.041
    
    [GRAPHIC] [TIFF OMITTED] T3788A.042
    
    [GRAPHIC] [TIFF OMITTED] T3788A.043
    
    [GRAPHIC] [TIFF OMITTED] T3788A.044
    
    [GRAPHIC] [TIFF OMITTED] T3788A.045
    
    [GRAPHIC] [TIFF OMITTED] T3788A.046
    
    [GRAPHIC] [TIFF OMITTED] T3788A.047
    
    [GRAPHIC] [TIFF OMITTED] T3788A.048
    
    [GRAPHIC] [TIFF OMITTED] T3788A.049
    
    [GRAPHIC] [TIFF OMITTED] T3788A.050
    
    [GRAPHIC] [TIFF OMITTED] T3788A.051
    
    [GRAPHIC] [TIFF OMITTED] T3788A.052
    
    [GRAPHIC] [TIFF OMITTED] T3788A.053
    
    [GRAPHIC] [TIFF OMITTED] T3788A.054
    
    Mr. Harper. And, finally, Mr. Chairman, I would like to 
also submit for the record a USA Today article in which the 
Macomb Republican County chairman named in the Michigan 
Messenger blog post denies he ever intended to use foreclosure 
lists and demands a retraction.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.055
    
    Mr. Harper. I thank you.
    [The statement of Mr. Harper follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.056
    
    [GRAPHIC] [TIFF OMITTED] T3788A.057
    
    [GRAPHIC] [TIFF OMITTED] T3788A.058
    
    [GRAPHIC] [TIFF OMITTED] T3788A.059
    
    Mr. Gonzalez. Without objection, those letters and 
statements will be made part of the record.
    The Chair will recognize Mrs. Davis for an opening 
statement.
    You waive opening?
    I would like to introduce the witnesses, and we may have 
time to start getting into the testimony.
    We will make your full written statements part of the 
record. We will also limit your testimony to 5 minutes. The 
machine on the table in front of you will turn green when you 
begin. When it turns yellow, you have 1 minute left; and when 
it turns red, and people are always surprised how quickly that 
time comes, you will have spoken for 5 minutes. I may give you 
a couple of seconds, but I will then cut you off in order to 
get to questions, given today's schedule. Because, as I've 
said, most of us have already read your statements; but we 
would like for you to elaborate and respond to some of our 
questions.
    This is not in the particular order in which the witnesses 
will be testifying. However, Elaine Manlove has been 
Commissioner of Elections for the State of Delaware since 2007, 
having served previously as Administrative Director of the 
Department of Elections for New Castle County, Delaware. As 
Commissioner, Ms. Manlove has overseen the implementation of 
Delaware's electronic signature project which allows voters to 
transmit the registration information in real time from the 
Division of Motor Vehicles to each county's Department of 
Election.
    We will have Todd Rokita, who was elected Secretary of 
State of Indiana in 2002, in which position he has also served 
as President of the National Association of Secretaries of 
State, as well as a member of the executive board of the 
Election Assistance Commission Standards Board. As Indiana's 
chief election official over the past 7 years, Mr. Rokita has 
modernized Indiana's election system with the adoption of vote 
centers and Internet voter registration.
    Katie Blinn has served as the Assistant Director of 
Elections for the Washington State Secretary of State's office 
since January, 2005, in which position she is responsible for 
election policy for the State of Washington. Prior to joining 
the Secretary of State's office, Ms. Blinn was a nonpartisan 
counsel in the State legislature, staffing the house committee 
in charge of elections, campaign finance, public records, and 
many other issues.
    Since January, Doug Chapin has served as Director of 
Election Initiatives for the Pew Charitable Trust Center on the 
States, which has been a nationally recognized voice in 
election administration policy since 2001. Prior to his work 
with the Pew Center for the States, Mr. Chapin was a lawyer in 
private practice in Washington, D.C., as well as elections 
counsel to the United States Senate Committee on Rules and 
Administration.
    I welcome you one and all.

 STATEMENTS OF THE HONORABLE TODD ROKITA, INDIANA SECRETARY OF 
STATE; THE HONORABLE ELAINE MANLOVE, COMMISSIONER OF ELECTIONS 
 FOR THE STATE OF DELAWARE; KATIE BLINN, ASSISTANT DIRECTOR OF 
    ELECTIONS FOR THE STATE OF WASHINGTON; AND DOUG CHAPIN, 
   DIRECTOR OF ELECTION INITIATIVES, PEW CENTER ON THE STATES

    Mr. Gonzalez. We will proceed with Mr. Rokita.

             STATEMENT OF THE HONORABLE TODD ROKITA

    Mr. Rokita. Thank you, Mr. Chairman and members of the 
committee. Thank you for your time and interest today.
    Today, I come as Indiana's Secretary of State and in that 
capacity only. But as past President of the national 
association, let me first say I don't know of a Secretary of 
State who is not interested in leveraging technology to the 
most responsible way possible so that we can have the most 
accessibility we can in the election process in the 21st 
century world.
    In that sentence, I said two words that are important to 
me. I said ``accessibility'' and ``responsibility.''
    If you are going to have a process that people believe in, 
you have to have both in proper balance. Because if you don't, 
if it is all about accessibility with no requisite security, 
i.e., responsibility, or if it is the other way, so hard that 
people can't access the polls, then you don't have a process 
that people believe in. When that happens, turnout goes down 
and people don't invest in the process. And when that happens, 
we lose the Republic, ultimately.
    And so my comments, and every day when I get up as 
Secretary of State, as Indiana's chief election officer, I 
focus on that proper balance.
    Having said that, we have been able to leverage technology 
in very smart ways so that we can have that accessibility at a 
polling place, or not, like a vote center, but also keep that 
all-important security so that people still come and invest in 
the process.
    For example, I said vote centers is one way to do that. We 
have photo ID in Indiana. We also have in place now a law that 
was passed unanimously by two divided chambers in our State 
legislature.
    It seems like he is okay. That knocked out the 5-minute 
clock, so I will be going on for awhile. Thank you, sir.
    Mr. Gonzalez. Now does that young man work for you?
    Mr. Rokita. He does now. Oh, the clock is back.
    Online registration, the plan in Indiana passed 
unanimously. In Indiana, we have divided houses, but the reason 
it passed unanimously I would say is because we have the 
security measures in place. We are going to tie it to the 
Bureau of Motor Vehicles, which has all of the requisite 
information and is the only database in the State that has the 
information so we can conduct online voter registration and 
online voter registration updating in a responsible manner. Of 
course, we also have photo ID. I don't think we would have 
gotten that bipartisan vote without those two measures.
    Again, I applaud your interest in this. I think technology 
does have a very real place but not in the form that the bill 
takes on.
    Another issue, in addition to online voter registration, 
would be voter list maintenance. It is not clear in the bill; 
and if it wasn't the intent of the bill, I would respectfully 
ask that it be made clear that we are still at least allowed in 
the State of Indiana and everywhere else to remove voters or at 
least mail voters who haven't voted in the last two Federal 
elections so that if they in fact passed away, if they in fact 
left the jurisdiction, they can be removed. By a reasonable 
reading of the legislation as written, it is not clear that we 
can do that any more.
    Of course, the two-cycle voting rule I just talked about is 
a product of the NVRA which put enormous restrictions on the 
ability to clean our rolls to begin with. At least let us 
operate under the standards of the NVRA.
    Requirements to allow applicants to register, it is not 
clear from the bill if the language allows us to verify the 
information that a voter registration applicant would put 
forward. That would be a huge problem in Indiana and, I would 
suggest, anywhere else. We have to have the ability to verify 
using technology the data put forth by an applicant. If we 
can't do that, we get more Mickey Mouses registering to vote. 
We get more overzealous and downright criminal third-party 
organizations going through the phone book and registering 
names to vote who may not be real persons at all.
    Also, the idea that anyone who submits data use what seems 
to be any form, or no form, for that matter, a cocktail napkin, 
that has to be curtailed as well. I don't propose the use of 
forms to be bureaucratic, but when you are talking about 
processing thousands and thousands and thousands of forms, it 
is imperative that when we train people, they look in certain 
spots for certain information. Turning that information in on 
any piece of paper whatsoever, or on any Web site whatsoever, 
in whatever form will greatly hinder the ability to get the 
registrations processed and create fraud.
    Thank you very much.
    [The statement of Mr. Rokita follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.060
    
    [GRAPHIC] [TIFF OMITTED] T3788A.061
    
    [GRAPHIC] [TIFF OMITTED] T3788A.062
    
    [GRAPHIC] [TIFF OMITTED] T3788A.063
    
    [GRAPHIC] [TIFF OMITTED] T3788A.064
    
    [GRAPHIC] [TIFF OMITTED] T3788A.065
    
    Mr. Gonzalez. Thank you very much.
    At this time, Elaine Manlove.

           STATEMENT OF THE HONORABLE ELAINE MANLOVE

    Ms. Manlove. Good afternoon. Thank you for the opportunity 
to offer some comments on H.R. 1719.
    As you stated, I am Elaine Manlove. As Commissioner of the 
State of Delaware, I am a State employee, as well as all of the 
elections officials in Delaware. But because I have been in the 
county office as well as in the State, I believe I have a 
unique insight to both sides.
    Every State faces different challenges regarding the 
implementation of any State and Federal laws regarding voter 
registration. Delaware offers its citizens numerous ways to 
become registered voters: calling the office, visiting the 
office, registering through DMV, online voter registration that 
we have in Delaware, and third party.
    What led Delaware to pursue an electronic signature option 
began in 2000. If the Departments of Elections in our counties 
have voters who they can determine have been to DMV but do not 
appear on voter registration rolls, the Department will inform 
the court of that situation; and, generally, a court order is 
issued. The fact that we have had anyone, much less an 
undetermined number, fall between the cracks of the voter 
registration process, concerned all of us. As we sought 
solutions, having all information electronically moved from DMV 
to elections in real time headed what became the ``Elections 
Wish List.''
    As we began to look at innovative ways to use technology to 
improve the way we work, we realized that while the long-term 
result was certainly worthwhile, getting there seemed 
impossible. The resources dedicated to technology in elections 
were consumed with normal operations of elections.
    Help America Vote Act funds allowed the Delaware elections 
team to move forward to implement some of the technology 
improvements that we would have never been able to do 
otherwise. Even with this funding, there were times when we had 
to focus on the election at hand and improvements had to wait.
    I read this bill with interest, since Delaware has had 
Internet registration for several years. Our system captures 
the information. However, we require that the voter print, 
sign, and mail in the application. We are working toward a 
system that would capture the voter's signature from their 
driver's license or State identification card. While that 
project is in the future, it would be a by-product of our 
electronic signature program.
    As I am sure you are aware, all States as well as their 
county offices are in different places regarding voter 
registration. With that in mind, I would urge you to remember 
the following:
    First is to provide reasonable time for implementation. 
This was my reason for letting you know how long e-signature 
took in Delaware. State and local governments vary widely on 
their election cycles. Allowing ample time for any new process 
is key to making it successful. H.R. 1719 does include an 
implementation deadline more reasonable than those offered in 
other bills I have seen. But, again, the security features that 
most election officials would like to have as part of this 
mandate may not be available at this point in time.
    Guarantee full funding for mandates. Many States no longer 
have HAVA funding, and most States do not have the resources at 
this time to fund any new initiatives.
    Third, to continue to gather information from State and 
local election officials, as I know you are doing. You are to 
be commended for reaching out to those officials, and we 
encourage you to continue this practice.
    Last, to allow flexibility for States to implement. One 
size does not fit all. States generally can meet the goal of 
the mandate without having the identical process of another 
State.
    I share the committee's goal of ensuring that everyone who 
wants to vote is registered and that voter registration is an 
easy process. With that in mind, I have reviewed H.R. 1719 and 
offer the following comments:
    As I read this bill, the online voter registration process 
mirrors what we do in Delaware. The main difference is you have 
to sign and mail it in. As I said, we are trying to tie that to 
our e-signature so you wouldn't.
    If we don't receive that information, new registrants are 
required to show identification at the polling place. Delaware 
voters receive a polling place card when they register, when 
they change their address, and when their polling place 
changes. Those notifications allow us to clean our rolls. Then 
we know that they don't live where they say they live. 
Otherwise, we end up deploying more poll workers, hiring more 
polling places, and buying more voting machines. So we do need 
to do the list maintenance on our lists.
    I am concerned about e-mail notification because of spam 
blockers. People's e-mails are often tied to their employment; 
and if they change jobs, the e-mail would often change.
    I think what we do in Delaware is accessible for voters, 
but yet we have security measures in place.
    I would like to thank you for the time you have allowed me 
to speak before the committee.
    [The statement of Ms. Manlove follows:] 

    [GRAPHIC] [TIFF OMITTED] T3788A.066
    
    [GRAPHIC] [TIFF OMITTED] T3788A.067
    
    [GRAPHIC] [TIFF OMITTED] T3788A.068
    
    [GRAPHIC] [TIFF OMITTED] T3788A.069
    
    Mr. Gonzalez. Thank you very much Ms. Manlove.
    I think we still have 10 minutes, so we're going to get the 
testimony in of Ms. Blinn.

                    STATEMENT OF KATIE BLINN

    Ms. Blinn. Good afternoon, chairman and members of the 
committee. My name is Katie Blinn, and I am the Assistant 
Director of Elections for the Secretary of State's office in 
Washington State, and I am here on behalf of Secretary of State 
Sam Reed. Thank you for the opportunity to share Washington's 
very positive experience with online registration.
    We implemented online registration in January 2008, in the 
midst of the Presidential primary season. In a nutshell, this 
program allows someone with a Washington State driver's license 
or State ID card to come on our Web site, enter their 
information, including their driver's license number, and while 
they are in the process of the application, our database links 
up with our licensing database to make sure that information is 
correct.
    If it is correct, then that applicant is allowed to 
proceed; and we grab the digital signature from the Department 
of Licensing to be used for voter registration purposes. The 
voter never has to print anything out or actually mail anything 
in. It is completely online.
    I don't need to tell you that the public is already 
conducting a fair amount of personal and professional business 
online, whether banking, taxes, keeping up to date with friends 
and family, the news, politics. Even filing briefs in court is 
now online. The public expects these services, and that 
expectation is only going to increase over the next 10 to 20 
years. This was illustrated to us the day that we launched this 
program.
    One day in January of 2008, after obtaining authority from 
our legislature and months of development, we quietly turned on 
the program and put a link on our Web site with no press 
releases, no promotional materials at all. Within minutes, the 
registrations started to file in at 500 a day. After a couple 
of days making sure that it all was working smoothly, we then 
promoted it, issued press releases, and promoted it in the 
press. The rate tripled to 1,500 a day in the next few days.
    So the point is--and, like I said, this was in the midst of 
the Presidential primaries, the same week that New Hampshire 
was conducting its Presidential primary. So the topic on the 
news every hour, every day was elections and voting.
    But the point is that the public was coming to our Web site 
already expecting to be able to do this, and we were finally 
able to provide that service. By the end of 2008, 158,000 
people had registered to vote on our online program.
    This program has also been very popular with election 
administrators because it reduces their workload. The 
information is coming in electronically, so they don't have to 
hire temporary workers, especially in a big Presidential year, 
to enter that information from a piece of paper onto a screen 
for a database.
    It is also more accurate because eliminating that data 
entry means that there is less chance of mistyping a person's 
name, address, date of birth, driver's license information, or 
whatnot.
    I have provided to the committee a handout that we provided 
to many States because we started to get inquiries from many 
States. So I provided that to the committee as well. That has 
additional information.
    There are a few key elements that made our process a 
success. One of them was that our authorizing legislation was 
free of detailed requirements. That allowed us the flexibility 
when we developed the program and into the future to develop it 
with the technology that we had and in the future to be able to 
adapt to better technology that will be available. And also to 
make the program user friendly. Even after only a year and a 
half, we are going to be implementing major revisions in the 
next few months to make this program more user friendly and 
more accessible.
    The system is only available on the Secretary of State's 
Web site. We certainly welcome voter registration drives from 
campaigns, political parties, advocacy groups, but we cannot 
rely on them to maintain their Web sites once the big elections 
are over, and we cannot grant them access to the Department of 
Licensing database that we link up during this program.
    And, finally, and this has been touched on before, we 
obtain the voters' signature from our Department of Licensing; 
and that is critical to making sure that the information is 
accurate. And, actually, as Secretary of State Rokita 
mentioned, this is actually what made it pass in our 
legislature, because it is a very controlled program. The user 
cannot advance through the application if the information that 
was provided is incorrect.
    Speaking to the legislation, many of the issues that we 
have have already been mentioned. We have provided a letter 
that Secretary Reed provided to the committee about a month 
ago, and we have also provided some screen shots just to give 
you an illustration of what it is like, although we are going 
to be improving that program. So we are happy to help the 
committee in any manner.
    Thank you.
    [The statement of Ms. Blinn follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.070
    
    [GRAPHIC] [TIFF OMITTED] T3788A.071
    
    [GRAPHIC] [TIFF OMITTED] T3788A.072
    
    [GRAPHIC] [TIFF OMITTED] T3788A.073
    
    Mr. Gonzalez. Ms. Blinn, real quick, we're going to be 
standing in recess in a couple of minutes, but the letter from 
Secretary of State Sam Reed you wanted to be included as part 
of the record. Without objection, it will be part of the 
record.
    [The information follows:]
    Mr. Gonzalez. We have 5 minutes, which is really longer 
than that, but as soon as we say that, it will be 5 minutes. 
So, my apologies to our last witness, but we will start up 10 
minutes after the last vote and we will stand in recess until 
then, thank you.
    [Recess.]
    Mr. Gonzalez. The hearing will reconvene.
    Ms. Blinn, by unanimous consent, we only had the letter of 
the Secretary of State, but I believe you have other documents 
you wanted to be made part of the record.
    Ms. Blinn. Thank you, Mr. Chair. If I could enter into the 
record both the handout that we have provided to other States 
and then the screen shots just for illustrative purposes, I 
would appreciate it.
    Mr. Gonzalez. Without objection, so ordered; and they will 
be made part of the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.074
    
    [GRAPHIC] [TIFF OMITTED] T3788A.075
    
    [GRAPHIC] [TIFF OMITTED] T3788A.076
    
    [GRAPHIC] [TIFF OMITTED] T3788A.077
    
    [GRAPHIC] [TIFF OMITTED] T3788A.078
    
    [GRAPHIC] [TIFF OMITTED] T3788A.079
    
    [GRAPHIC] [TIFF OMITTED] T3788A.080
    
    [GRAPHIC] [TIFF OMITTED] T3788A.081
    
    [GRAPHIC] [TIFF OMITTED] T3788A.082
    
    [GRAPHIC] [TIFF OMITTED] T3788A.083
    
    [GRAPHIC] [TIFF OMITTED] T3788A.084
    
    [GRAPHIC] [TIFF OMITTED] T3788A.085
    
    [GRAPHIC] [TIFF OMITTED] T3788A.086
    
    [GRAPHIC] [TIFF OMITTED] T3788A.087
    
    Mr. Gonzalez. At this point, we will proceed with the 
testimony of Mr. Chapin.

                    STATEMENT OF DOUG CHAPIN

    Mr. Chapin. Thank you, Mr. Chairman.
    They say that brevity is the very soul of wit, and in that 
spirit I will try to be very witty today.
    Americans' exploding demand for fast and convenient access 
to information means that the public sector can no longer 
ignore opportunities to use the latest proven technology to 
reach out to customers, citizens, and clients online.
    At the Pew Center on the States, we are committed not just 
to helping State and local election officials but actually 
working with State and local election officials, including all 
three States represented on the panel with me today, to find 
ways to make better use of the latest proven technology, 
including the Internet and new mobile broadband devices to 
serve the needs of registered voters and eligible citizens 
alike.
    Consider this: When the National Voter Registration Act was 
passed, it was 1993, 16 years ago. The Help America Vote Act 
was passed 7 years ago almost to the day. Think how much the 
world has changed since then. Since then, new technological 
developments like text messaging, social networking, and cloud 
computing have remade and reshaped the world we live in. At 
Pew, we believe it is not only desirable but necessary for 
State and local election offices to make use of the latest 
proven technology in order to keep pace.
    In the area of voter registration, we are actively engaged 
in the effort to explore potential solutions. Pew is convening 
a working group of election officials and technology experts. 
We are looking closely at systems across the Nation to examine 
what works and what doesn't. Our goal is a system that works 
not just for voters and election officials but is also 
accurate, cost effective, and efficient for voters as citizens 
and as taxpayers alike.
    I am also pleased to represent Pew as a member of the 
committee to modernize voter registration, a bipartisan effort 
to draw attention to the inefficiencies of our current system 
and stimulate a dialogue about using technology to make the 
process more integrated and efficient.
    I ask permission to enter into the record an issue brief 
from Pew about voter registration modernization.
    Mr. Gonzalez. Without objection it will be made part of the 
record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.088
    
    [GRAPHIC] [TIFF OMITTED] T3788A.089
    
    [GRAPHIC] [TIFF OMITTED] T3788A.090
    
    [GRAPHIC] [TIFF OMITTED] T3788A.091
    
    Mr. Chapin. The Committee on Modernizing Voter Registration 
shares Pew's commitment to harnessing proven technology and to 
improving how we run elections, which we believe is a critical 
goal.
    That goal is not limited to modernizing voter registration, 
however. I know that Members and staff on both sides of the 
aisle have worked very hard to identify ways to assist military 
and overseas voters around the world, and we are pleased to see 
that much of this work is included in what we hope is the soon 
to be enacted National Defense Authorization Act.
    The military and overseas voting provisions in the NDAA 
harness technological advancement to expedite delivery of 
ballots to voters around the world, including e-mail in order 
to get blank ballots into their hands. We want to find ways to 
go further, to use current information in Federal and State 
databases to make sure that military and overseas voters can 
get their ballots at the correct address on the first try.
    The ability to keep up with these mobile voters is crucial. 
In fact, military and overseas voters are almost twice as 
likely as domestic voters to encounter registration problems. 
Anything we can do to help military and overseas voters is not 
only important for those voters but for what it can teach us 
about how we can help voters here at home.
    We are also pleased to have partnered with State and local 
election officials and Google on a project called the Voting 
Information Project, which uses official election information 
to answer voters' questions online about where to vote and what 
is on the ballot. Ten States in Los Angeles county joined us in 
2008, and we are pleased to note that the Commonwealth of 
Virginia will be using VIP to assist their voters with the 
November general election.
    VIP will enable election offices to unleash the creativity 
of programmers to create voter tools, including e-mail and text 
updates, which is something that is being piloted in North 
Carolina; APS for mobile phones, which are increasing popular; 
tools to assist voters with specific questions, disabled voters 
needing accessibility information, voters needing public 
transportation information; and technology to generate 
customized ballot listings for military and overseas voters 
across the world so they can know what is on their ballot in 
time to return them.
    Exciting advances in technology mean that reforming our 
Nation's elections is limited almost completely by our own 
imaginations, and we at Pew are committed to removing even 
those imaginary limits for the betterment of both election 
officials and voters alike.
    Thank you for the opportunity to appear today. On behalf of 
all of my colleagues at the Pew Center on the States, I applaud 
you for considering and stand ready to assist you in 
accomplishing the goal of harnessing the latest technology to 
bring our election system into the 21st century.
    Thank you.
    [The statement of Mr. Chapin follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.092
    
    [GRAPHIC] [TIFF OMITTED] T3788A.093
    
    [GRAPHIC] [TIFF OMITTED] T3788A.094
    
    [GRAPHIC] [TIFF OMITTED] T3788A.095
    
    [GRAPHIC] [TIFF OMITTED] T3788A.096
    
    [GRAPHIC] [TIFF OMITTED] T3788A.097
    
    [GRAPHIC] [TIFF OMITTED] T3788A.098
    
    [GRAPHIC] [TIFF OMITTED] T3788A.099
    
    [GRAPHIC] [TIFF OMITTED] T3788A.100
    
    Mr. Gonzalez. Thank you very much.
    At this time, we're going to proceed with questions of the 
witnesses, and the Chair will recognize Mr. Davis.
    Mr. Davis of Alabama. Mr. Chairman, thank you.
    I am glad to see my old trial advocacy partner is a high-
ranking DOJ guy; and he is here, Spencer Overton. I am glad to 
see you here today.
    I have a bill I have introduced and I want to talk about 
for one second with the panel. It is H.R. 3473, the Military 
Internet Voting Pilot Bill. It just focuses, as the title 
implies, on service men and women, but I think that is an 
important part of this debate, Mr. Chapin, as you just pointed 
out; and I will give you a specific example of how this plays 
out in my State of Alabama.
    We still have runoffs. Most States don't, but we still have 
party runoffs. That means if no one get 50, the top two go into 
a runoff.
    It used to be that the runoff time period was 3 weeks in 
the State of Alabama. That was thought to be a reasonable 
period. It is not so far after the first primary, but it is far 
enough away to allow campaigns to recalibrate. Because of our 
difficulty in complying with current Federal mandates regarding 
getting ballots to soldiers, we have had to accommodate by now 
having a 6-week runoff period.
    Let me tell you empirically what has happened in the last 
three election cycles, State and municipal, in Alabama. The 
turnout drops substantially.
    We just had runoffs in city council races in Birmingham. 
Six weeks after the primary, the turnout was approximately 9 to 
10 and a half percent.
    We had legislative runoffs in 2006. The turnout was so low 
that in legislative districts of 30,000-some people, the winner 
was getting 860, 870 votes.
    We have runoffs next year in the State-wide races. Mind 
you, most voters are still not aware of the 6 week runoff 
timetable. They are still thinking it is 3 weeks. We are 
anticipating there could be a drop-off of as much as 50 or 60 
percent.
    Now those of us who believe we do better as a democracy 
when more people vote are concerned about those patterns. And, 
candidly, the only way that Alabama and States like us that 
have runoffs could meet Federal standards regarding service men 
and women, without having an interminable runoff campaign that 
was a lot later and ran the risk in a drop-off in turnout, 
would be if we had Internet voting.
    I hear the concern raised from some quarters, well, there 
could be a breach of the system, or there could be some 
manipulation of the ballot through a computer hacker. I am 
tempted to say, when it comes to the military, if someone 
figures out how to hack a military computer or if someone 
figures out how to invade the computer integrity of the 
military, we probably have a bigger problem than someone 
voting, frankly. So that doesn't strike me as--it is not a 
trivial concern, nor does it strike me as a dispositive 
concern.
    I do have some reservations about moving full scale to 
online registration. I do think there are more possibilities of 
fraud there, for all kinds of obvious reasons, but I don't see 
an argument against moving toward allowing our service men and 
women a full-fledged opportunity to vote by computer.
    And one other aspect here, even now with the way that the 
system works at the Presidential level, as a practical matter, 
service men and women have to get their votes in a long time 
before the election, sometimes 3 or 4 or 5 weeks, as I 
understand it. That amounts to mandatory early voting. It is 
one thing if a voter chooses to vote early in States that allow 
it. It is another thing if a voter is almost forced into it.
    Why is that a problem? Every now and then, things happen in 
the final weeks of an election that are actually meaningful and 
relevant. I think our service men and women ought to have the 
opportunity to see the election in its totality if they choose, 
to see the play run to its conclusion, see the credits rolling 
across the screen; and Internet voting gives them a chance to 
do that.
    So, as we politicians do, that is a long-winded statement 
and not a question, but I guess the question that we always end 
with is: Don't you agree?
    Would anyone like to react to anything that I have said?
    Mr. Rokita. I will quickly say that the Indiana General 
Assembly and the Indiana Secretary of State--that being me--
feels like you do when it comes to our service men and women.
    We have implemented a program where, through a Department 
of Defense server, we do offer Internet voting to those voters. 
We do have confidence that the DOD servers are a good way to do 
this; and that was the only way we were able to get the 
legislation passed, actually. It would be a program, a joint 
venture with the DOD.
    Ms. Blinn. Washington State strongly advocates Internet 
voting for the military and overseas voters. We brought a bill 
before our legislature this past year. It did not pass, but we 
are going to continue to advocate for this.
    Washington State has six military bases and also a very 
large overseas community, either because of dependents or 
because of people working or going to school overseas. Remember 
that there are lots of people in areas of the world where there 
is no postal system at all, or it is so unreliable, it is so 
difficult that it doesn't matter whether you put the ballots in 
the mail 4 weeks before Election Day, 6 weeks before Election 
Day, or 8 weeks before Election Day. The ballots are still 
never going to get to that voter where that person is located.
    We already implement e-mail ballots, and we want to 
strongly advocate the electronic return in some fashion of 
ballots. Because these people frequently have laptops and can 
access the Internet. We hear from our military over and over 
again: I can e-mail. I have access to Internet. I don't have a 
printer, I don't have a scanner, and I don't have a postal 
system.
    Thank you.
    Mr. Chapin. Just very quickly, the question of whether or 
not electronic return of ballots is appropriate is very much an 
open question. I think that one thing that many people have 
settled on is we need to find a way to get ballots to men and 
women overseas faster. I think we are on the verge of that with 
the National Defense Authorization Act and some of the ballot 
transmission things that are in there.
    We would also like to find ways to use tools like the 
Voting Information Project to allow Alabamians or anyone else 
around the world to see what is on their ballot so they have as 
much time as they need to fill out a ballot and still return it 
in time to have it be valid and have it be counted.
    Mr. Davis of Alabama. Thank you, Mr. Chairman.
    Ms. Manlove. In Delaware, we did change State law to allow 
us to accept ballots that come back electronically. We were 
receiving ballots back, and we were not allowed to accept them 
by State law. But we did change the law that if overseas or 
military--military and overseas citizens, if they sent their 
ballots back by fax or e-mail, we were allowed to accept them. 
And we have been e-mailing ballots to the military for quite a 
while.
    Mr. Gonzalez. Thank you very much.
    The Chair will recognize Mr. Harper.
    Mr. Harper. Thank you, Mr. Chairman.
    I would also like to submit for the record a Demos study on 
the shortcomings of using public assistance databases for voter 
registration verification. This was mentioned in Mr. Rokita's 
written testimony. We would like to add that to the record.
    Mr. Gonzalez. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.101
    
    [GRAPHIC] [TIFF OMITTED] T3788A.102
    
    [GRAPHIC] [TIFF OMITTED] T3788A.103
    
    [GRAPHIC] [TIFF OMITTED] T3788A.104
    
    Mr. Harper. The first question I have is for Mr. Rokita. 
Are you aware of any other databases other than the driver's 
license database that would have all of the information you 
need to verify and complete a voter registration that could be 
initiated online?
    Mr. Rokita. No, not in Indiana or really anywhere else. The 
Demos report speaks to that point.
    Mr. Harper. I would ask the same question of each of you, 
if there is anything else that you rely on in your States or in 
your studies that would indicate that.
    Ms. Manlove. No. In Delaware, we connect with the DMV 
database.
    Ms. Blinn. That is the same in Washington.
    Mr. Chapin. In our consultations with State and local 
election officials, we are trying to determine if there are any 
other State databases that they would feel comfortable using 
that would give them the same level of assurance that Secretary 
Rokita feels with motor vehicle files.
    Mr. Harper. Have you found anything yet that you think 
might be there?
    Mr. Chapin. We have not yet.
    Mr. Harper. Thank you very much.
    The question I have for each of you, if a voter 
registration did not include a signature, is there any way you 
could have a confidence in verifying that it indeed was the 
correct person?
    Mr. Rokita. I would say no. A signature is at least what we 
need.
    Ms. Manlove. If we were able to obtain the signature by 
connecting to the DMV database, that would be significant for 
us.
    Ms. Blinn. Washington votes primarily by mail; and the way 
we authenticate the ballot, that the person who voted the 
ballot is the registered voter, is through confirming that the 
signature on the envelope is the signature on the voter 
registration file. So we definitely need a signature.
    Mr. Harper. So you have to have that, and the way is 
through your license?
    Ms. Blinn. Correct.
    Mr. Chapin. We will follow the lead of State and local 
election officials as to what they think is best in designing 
what they think is a more modernized system.
    Mr. Harper. Ms. Blinn, one question I would have, and I am 
aware of, of course, going back to 2007, obviously, some of the 
issues with fraudulent voter registrations that involved ACORN 
and led to an agreement in lieu of prosecuting that 
organization in 2007, what is your State's relationship as we 
continue into this year, with ACORN?
    Ms. Blinn. There were fraudulent registration forms 
submitted in Washington State by ACORN in two counties, the 
counties that Seattle and Tacoma are located in, King and 
Pierce counties, respectively. They were identified by the 
county elections offices because they were filled out and 
signed in the same handwriting. So these were paper forms. The 
forms were referred over to their prosecutors' offices, and 
there was an investigation. There were prosecutions, and I 
believe there were four or five felony convictions out of this 
investigation.
    We did enter into a settlement agreement. There were guilty 
pleas, and as part of the guilty pleas there was the settlement 
agreement with ACORN. Secretary Reed signed off on that so it 
would have State-wide enforcement. This required ACORN to go 
through significant training and show the counties what kind of 
quality control measures they were going to put in place.
    The prosecutions were primarily in 2007, and they did come 
back in 2008 and conduct voter registration in those same two 
counties in 2008, and we did not have subsequent issues with 
them in 2008.
    I don't know if they plan to come back in future Federal 
election years.
    Mr. Harper. In light of the more recent news involving 
ACORN, is this agreement subject to review or anticipated 
review to see if there is any continued relationship with 
ACORN?
    Ms. Blinn. We don't have a specific relationship with 
ACORN. I think if additional issues start to arise, we will 
certainly bring it to their attention.
    Mr. Harper. Thank you, Mr. Chairman.
    Mr. Gonzalez. Thank you, Mr. Harper.
    The Chair will recognize himself for some questioning.
    It seems that everybody's testimony when it comes to the 
use of the Internet is predicated, obviously, on having some 
method of verification. That's obvious to all of us. The 
problem that we run into, or one of the concerns we may have, 
and I don't know how we get around this, and that's what my 
question goes to, is that you do rely for verification that 
that person who registers through the Internet have a valid 
driver's license or identification card issued by the 
Department of Motor Vehicles. In Texas, we refer to it by a 
different name. Does that pose a disadvantage to a significant 
number of people in every election since we don't know the 
number of voters separating the winner from the loser?
    I mean, it could be less than 500 votes in Florida or, 
though we're talking about President as far as carrying 
Florida, it could be less than 250 votes in Minnesota for a 
Senator. These things really do happen.
    Let me just point out, according to a University of 
Washington study, 13 percent of all registered voters, 18 
percent of African Americans, and 20 percent of young adults in 
Indiana do not have an Indiana driver's license or State-issued 
ID card. What problems does that create? How do you address 
that? Are you making modern technology not available to many 
that wouldn't be able to take advantage of it for the reason 
that they don't have the verification necessary?
    And who wants to go first?
    Mr. Rokita.
    Mr. Rokita. Thank you, Mr. Chairman.
    First of all, with regard to the election data that you 
point out, I would respectfully say that registering to vote is 
not the same as voting.
    Secondly, I would say we shouldn't not try to use the best 
technology that we can for all of our voters or a significant 
number of voters simply because not every voter might take 
advantage of that. The fact of the matter is, in Indiana, we 
have 5,500 polling places. You can almost fall out of bed into 
a polling place to vote on Election Day.
    We now vote early. It is voting absentee in person, but it 
is effectively voting early, 30 days before an election.
    We are doing more and more things throughout this country's 
history and our State's history to make the polling place 
accessible. All of those things are still there, with or 
without online voter registration.
    Ms. Manlove. In the Delaware system currently, you would 
have to print out your form, sign it, and mail it in and 
provide identification. If you don't have a driver's license or 
a State ID, you would have to have some other form of 
identification and mail it in. Outside of that, I wouldn't have 
a better way of handling that.
    Ms. Blinn. In Washington State, our online system is simply 
another method for providing registration. We haven't taken 
away any other methods for registration, and we try to make the 
program as user friendly as possible to explain that, if you 
happen to not have a Washington driver's license or State ID 
card, it takes the user directly to the paper form. They can 
print that out and send that in, just as they always have, and 
provide other forms of ID.
    Mr. Gonzalez. Anybody else? Any ideas?
    And you're right, Mr. Rokita. It's one thing to be 
registered. It is a different issue when it comes to voting.
    And when it comes to having some sort of State-issued 
identification, photo ID, and the problems that it presents, 
and especially Indiana and the issues that have arisen, even in 
your Supreme Court, which recognize that you have thousands 
that would be disenfranchised by that condition and such. I'm 
just saying that we try to make everything that is available to 
individuals so we register as many people as possible and 
hopefully they'll go to the polls.
    That leads me to the next question. Since we know this 
probably will impact a certain segment of a community that is 
identified on the losing side of the digital divide, does it 
become more important to have third-party organizations--that 
are subject, of course, to scrutiny and vigilance and 
everything else--to go out in the communities and to assist and 
to promote the registering of voters?
    Ms. Blinn. I am happy to speak on that.
    We are encouraging the advocacy groups who want to do voter 
registration drives to simply do it on a laptop. Because they 
can use any kind of plug-in that connects to the Internet 
through cell towers or however and conduct the same voter 
registration drives on the Internet.
    Actually, it is our understanding that the people there 
registering feel more comfortable because then they are not 
handing a piece of paper with their signature on it to a 
stranger. Instead, it is going into the State database. So we 
are encouraging the advocacy groups to use the online system 
and just do it on laptops.
    Mr. Gonzalez. Anyone else?
    Mr. Chapin. Mr. Chairman, I think a point that bears noting 
is that, through advances in voter registration, we can 
actually realize some cost efficiencies for election offices 
which they can then use to assist in outreach to voters.
    The brief I entered earlier suggests that, at least in one 
county in Arizona, online registrations cost something along 
the lines of 3 cents per voter, as opposed to 83 cents per 
voter for a paper copy. Those savings that an election office 
can realize could be used to reach out to new voters. But it 
would leave it to them to figure out how best to allocate the 
resources, but at least it would remove the inefficiency of the 
current paper-based system.
    Ms. Manlove. I agree with both of them. We are just 
offering another option by using Internet. It doesn't take away 
anything that we did before that.
    Mr. Rokita. I would simply say that, conceptually, I think 
it is a good thing that third parties help out with voter 
registration. I don't think it should be just a government 
exercise. Elections are for and by the people, and that is the 
way it should remain.
    Mr. Gonzalez. All right, well, that's all I have.
    Mr. Harper, do you have any follow-up?
    Mr. Harper. No.
    Mr. Gonzalez. I did neglect to ask unanimous consent for 
the Common Cause letter on the testimony of Bob Edgar, that it 
be admitted and be made part of the record.
    And, without objection, it is going to be admitted.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T3788A.105
    
    [GRAPHIC] [TIFF OMITTED] T3788A.106
    
    Mr. Gonzalez. First of all, I want to express our thanks to 
the witnesses. It's so important to hear from you. Obviously, 
we're up here and we are attempting to do the best we can, and 
then you have to deal with the consequences of those decisions. 
So it's really important that you acquaint us with what it's 
like on the ground. I would like to thank my colleagues who 
participated today.
    The hearing record will remain open for 5 legislative days 
to allow for the submission of any additional materials or 
questions that Members may have. If you receive any further 
questions, we ask that you respond in writing as promptly as 
possible. Notice I said ``in writing.'' I am not sure we're 
going to accept that through the Internet. The questions and 
answers will all be made part of the record.
    Thank you again.
    And we stand adjourned.
    [Whereupon, at 2:50 p.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
